No.

In the Supreme Court of the United States
KENNETH DANIELS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE

I, Michael B. Kimberly, counsel for petitioner and a member of the Bar of this
Court, certify that on this 1st day of July, 2019, I caused three copies of this petition
for a writ of certiorari to be served by overnight mail and one copy to be served by
electronic means on the following:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
I further certify that all parties required to be served have been served.

_______________________
Michael B. Kimberly

